No. 19-1328
IN THE SUPREME COURT OF THE UNITED STATES

DEPARTMENT OF JUSTICE, PETITIONER
v.
HOUSE COMMITTEE ON THE JUDICIARY

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITIONER’S SUGGESTION OF MOOTNESS AND MOTION TO VACATE THE
JUDGMENT OF THE COURT OF APPEALS, via email and first-class mail, postage prepaid, this 14th
day of June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document 1202 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury
that the foregoing is true and correct. Executed on June 14, 2021.

Edwin S. Kneedler
Deputy Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

June 14, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

19-1328
DEPARTMENT OF JUSTICE
HOUSE COMMITTEE ON THE JUDICIARY

BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

